BECKER GALLAGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of
Massachusetts, California, Colorado, Connecticut,
Delaware, the District of Columbia, Hawai'i, Maine,
Maryland, Michigan, Minnesota, Nevada, New Jersey,
New Mexico, New York, North Carolina, Oregon,
Rhode Island, Vermont, Virginia, Washington, and
Wisconsin as Amici Curiae in Support of Respondents
in 19-123, Sharonell Fulton, et al. v. City of
Philadelphia, et al., were sent via Two Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Two Day Service and e-mail to the following parties
listed below, this 20th day of August, 2020:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becket law.org
Counsel for Petitioners
Leslie Cooper
American Civil Liberties Union
125 Broad Street
New York, NY 10004
(212) 519-7815
lcooper@aclu.org
Counsel for Intervenor-Resp ondents Support Center for
Child Advocates and Philadelphia Family Pride

I BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
I

(800) 890.5001
www.beckergallagher.com

I 8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com
Counsel for Respondents City of Philadelphia,
Department of Human Services for the City of
Philadelphia, Philadelphia Commission on Human
Relations
Elizabeth N. Dewar
State Solicitor
Counsel of Record
One Ashburton Place
Boston, MA 02108
(617) 963-2204
bessie.dewar@mass.gov
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 20, 2020.

Donna J. Wolf

0

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Notazy

( 6 ~ ctJ l &00

Psi& K), ~

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

